  REVIEW OF THE ADEQUACY OF 

SUPPORTING DOCUMENTATION FOR 

       DISBURSEMENTS 





            Report Number 08-07 

         Date Issued: January 29, 2008 





              Prepared by the 

         Office of Inspector General 

    U. S. Small Business Administration 

                  U.S. Small Business Administration
                  Office of Inspector General
                                                                        Memorandum
     To: 	   Herbert L. Mitchell, Associate Administrator                                        Date:     January 29, 2008
             Office of Disaster Assistance

  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Review of the Adequacy of Supporting Documentation for Disbursements
             Report No. 08-07


             This report is the final in a series resulting from our review of the Small Business
             Administration's (SBA"s) efforts to expedite loan disbursements during its 90-in­
             45 Campaign . The campaign was initiated in the fall of2006 to di sburse funds on
             approximately 90.000 loans approved for Hurricanes Katrina. Rita. and Wilma
             within 45 days. We initiated the audit in response to an employee complaint that
             loans processed during the campaign were disbursed without receiving the
             required supporting documentation.

             We previously reported 1 that SBA had disbursed loans without obtaining all of the
             documents required to protect its interest in collateral on secured loans. The
             purpose of this audit was to determine whether SBA secured other documents
             prior to disbursing loan proceeds. To address the audit objectives, we reviewed
             general information about 40 of I, 154 statistically sampled loans disbursed by the
             10 case managers within the Fort Worth Processing and Disbursement Center
             (PDC) who made the highest average daily disbursements during the 90-in-45
             Campaign. This information included the borrower' s name. loan number. and
             amount of the di sbursement. We also examined loan documentation in SBA ·s
             Disaster Credit Management System (DCMS) and the chronology log maintained
             by the PDC to determine the required documents appl icable to each loan. These
             included hazard insurance, flood insurance. insurance injections, building permits,
             builder·s ri sk insurance, worker·s compensation, duplication of benefits

             1                                                        1umber
                 Securing Collateral for Loan Disbursements, Report            07-22. dated Ma) 9. 2007.
declarations. and real estate injection documents pertaining to each of the 40 loans
in DCMS. Finally, we interviewed attorneys at the PDC.

We conducted the audit from April through November 2007 in accordance with
Government Auditing Standards as prescribed by the Comptroller General of the
United States.

BACKGROUND

The Small Business Administration provides di saster loans to help homeowners.
renters, businesses and nonprofit organizations return to pre-disaster condition.
SBA disaster loans are the primary form ofFederal assistance for non-farm,
private sector disaster losses and are the only form of SBA assistance not limited
to small businesses.

In 2005. Gulf Coast Hurricanes Katrina. Rita and Wilma caused more than
$118 billion in estimated property damage. Because rebuilding efforts had
progressed slowly, a backlog of approximately 90.000 approved but not fully
disbursed, Gulf Coast Hurricanes disaster loans had accumulated by September
2006. To reduce the backlog of loans. on October 2. 2006. SBA initiated the 90­
in-45 Campaign. The goal of the campaign was to disburse the 90,000 loans
within 45 days. As a result of the campaign initiative. SBA disbursed over
$858 million to borrowers.

Borrowers are required to submit proof of the following 7 items on all secured
loans in excess of $ 10,000 to protect all insurable collateral. Flood insurance is
the only exception where the borrower is required to submit proof for all secured
loans.

   Hazard Insurance- Proof of hazard insurance is required on both the
   damaged property and any collateral property that is substituted to secure the
   loan.

   Flood Insurance - Proof of existing flood insurance is required on all secured
   loans for both the damaged property and the collateral substituted to secure the
   loan.

   Insurance Injections- Evidence is required to show that all insurance
   proceeds and other funds received for real estate construction or repair have
   been spent as intended.

   Building Permits - Building permits are required to protect all insurable
   collateral.


                                          2

   Builder's Risk Insurance -Evidence of the builder's risk insurance must be
   provided to protect all insurable collateral. This insurance covers owners and
   builders for the property that was damaged or destroyed during construction,
   renovation, or repair.

   Worker's Compensation- Worker·s compensation insurance must be
   provided to protect all insurable collateral. This insurance covers medical care
   and compensation for employees who are injured in the course of employment.

   Real Estate Injections - The borrower must provide evidence that any funds
   outside of SBA loan funds have been injected into the construction project
   before SBA will fully disburse the loan. This may arise when the borrower is
   upgrading beyond the size and quality of the structure· s pre-disaster condition.

Borrowers are also required to notify SBA of the receipt of any disaster funds
from other programs that would constitute a duplication of benefits and sign a
Loan Authorization and Agreement regarding this requirement. The borrower
must pay SBA any insurance proceeds or other compensation. which exceeds the
amount of damages incurred at the time of loan approval.

RESULTS

Nearly Half of the Loans Reviewed were Disbursed without Securing the
Required Documentation

The audit disclosed that nearly hal[ or 19. of the 40 loans reviewed were
disbursed by SBA without securing the proper documentation needed to protect
SBA's interest in the collateral and to document that insurance proceeds were used
to offset the SBA loans. Projecting our sample results to the universe of 1,154
loans evaluated, we estimate that SBA disbursed 554 loans without securing all of
the documents required to make disbursements. Ofthe 19 loans. 12 were missing
3 or more documents required to process the disbursement. In total. 55 documents
were missing for the 19 loans in question. Specifically:

   • 	 7 Jacked proof of hazard insurance.

   • 	 4 did not have flood insurance documentation.

   • 	 8 lacked supporting documentation verifying that insurance injections had
       been made.




                                         3

   • 	 7 did not have building permits on file in DCMS.

   • 	 13 were missing proof of builder· s risk insurance.

   • 	 13 did not have worker·s compensation insurance documents.

   • 	 3 lacked supporting documentation verifying real estate injections.

Of the 19 loans, 14 of these were fully disbursed and five were partially disbursed.
Of the five, all of the loans were over the $10.000 minimum. which would require
that all documents were obtained prior to disbursement.

According to July 25. 2007 testimony and prepared statements provided to
Congress by loan officers previously employed by the PDC. SBA made
disbursements '"'ithout securing the proper documentation because PDC managers
put abnormally high pressure on loan officers to disburse 90.000 loans '"ithin 45
days. This caused employees to circumvent the Loan Authorization and
Agreement stipulations and Standard Operating Procedure requirements for
securing documentation. SBA officials also stated that their staffs were relatively
new during the 90-in--15 Campaign, which may have contributed to the large
number of exceptions noted by the audit. Without securing the proper
documentation SBA cannot be certain that the 19 borrowers were eligible to
receive disaster funds or 'vhether disaster disbursements duplicated insurance
benefits that borrowers received.

RECOMMENDATIONS

We recommend that the Associate Administrator for Disaster Assistance:

1. 	 Contact borrowers associated with the 19 loans and request the missing
     documents needed to protect SBA ·s security interest in the damaged property.

2. 	 Review all loans that have been disbursed to borrowers and, in cases where all
     required documents were not obtained. contact borrowers to obtain the missing
     documents.

3. 	 Implement a review process and establish thorough ·wrinen procedures to
     ensure that all required loan documents are obtained and noted in loan files
     prior to making disbursements over $10.000 (in accordance with the
     requirement regarding the loan amount).




                                          4

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 7, 2007. we provided SBA with a draft of the report for comment.
We discussed the findings and recommendations with the Office of Disaster
Assistance staff. On January 1 L 2008. SBA submitted an informal response
showing concurrence with our recommendations. The Associate Administrator
agreed to contact the borrowers associated with the 19 loans to request the missing
documents needed to protect SBA 's security interest in the damaged property.
SBA also agreed to review the 1,154 loans and, if necessary, contact borrowers to
obtain missing documents. Finally, SBA agreed to establish written procedures to
ensure that all required loan documents are obtained and noted in loan files prior
to disbursements over $10.000. SBA · s comments are responsive to our findings
and recommendations.


We appreciate the courtesies and cooperation of the Office of Associate
Administrator Disaster Assistance. Disaster Assistance PDC, and the DCMS
Operations Center during this audit. If you have any questions concerning this
report. please call me at (202) 205-7203 or Pamela Steele-Nelson. Director,
Disaster Assistance Group, at (202) 205- [Exemption 2] .




                                        5

